BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF COMPLIANCE
No. 21-5592
JOHN HENRY RAMIREZ,

Petitioner,
V.

BRYAN COLLIER, EXECUTIVE DIRECTOR, TEXAS
DEPARTMENT OF CRIMINAL JUSTICE ET AL.,

Respondents.
As required by Supreme Court Rule 33. l(h), I certify
that the Brief of Amici Curiae Arizona, Alabama,
Arkansas, Idaho, Indiana, Louisiana, Montana, South
Dakota, and Utah in Support of Respondents contains
3,030 words, excluding the parts of the Brief that are
exempted by Supreme Court Rule 33. l(d).
I declare under penalty of perjury that the foregoing
is true and correct.
Executed on October 15, 2021.

Heather Campbell
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

(800) 890.5001
www.beckergallagher.com

8790 Governor's Hill Drive
I Suite
102
Cincinnati, Ohio 45249

Franklin Square
1300 I Street, NW, Suite 400E
• Washington, DC 20005

Sworn to and subscribed before me by said Affiant
on the date designated below.

Notary Public
[seal]

